0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Petition for Writ
of Certiorari in Jason Cunningham, Individually and
as Adult Natural Son and Sole Wrongful Death
Beneficiary and next of Kin, Affiant and Administrator
Ad Litem and Personal Representative for Nancy Jane
Lewellyn, Deceased and Estate of Nancy Jane Lewellyn
v. Robert Paschal, Individually and in his Official
Capacity as a Shelby County Sheriff's Deputy and
Marvin Wiggins, Individually and in his Official
Capacity as a Shelby County Sheriff's Deputy, were
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day and e-mail service
to the following parties listed below, this 16th day of
September, 2021:
Emmett Lee Whitwell
John Marshall Jones
Shelby County Attorney
160 N. Main Street
Suite 950
Memphis, TN 38103
(901) 222-2100
lee.whitwell@shelbycountytn.gov
johnm.jones@shelbycountytn.gov

Counsel for Respondents

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Daniel A. Seward
Counsel of Record
Seward Law Firm
4510 Chickasaw Road
Memphis, TN 38117
(901) 647-5848
sewardlawfirm@aol.com
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 16, 2021.

Donna J. Wolf
Becker Gallagher Legal Pub 1
g, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

s~~t.( lb

I

2bc?/

d?fl._. I{] t/11..-Z.f!Y

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Pubic. Slate of Ohio
My Comml811o11 Expires
Febrnary 14, 2023

